No.
In The

#Puprente Court of the Zirciteb gPtate5

DEMETRIAS TAYLOR,
as representative of the estate of Iretha Jean Lilly, Deceased;
TERRANCE HAMILTON;
TERRANCE LAMONT HAMILTON,
as next friend and father of I.H.,
Petitioner,
v.
MCLENNAN COUNTY;
KIMBERLY RIENDFLIESCH; DESERA ROBERTS;
JOHN WELLS,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that Petitioner's Petition
contains 8,908 words, excluding the parts that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

William Pieratt Demond
Counsel for Petitioner

